                                     Department of the Interior 
                                     Office of Inspector General 
                                                                 
                                                                     
                                                                     
                                                                     
                 AUDIT REPORT 


                       U.S. Fish and Wildlife Service 
                    Federal Assistance Program Grants 
                   Awarded to the State of Connecticut,  
                 Department of Environmental Protection,  
                      Bureau of Natural Resources, 
                 From July 1, 2004, Through June 30, 2006 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0005­2007                    October 2007
                United States Department of the Interior
                        OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                 October 16, 2007

                                    AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the State of Connecticut, Department of Environmental Protection,
               Bureau of Natural Resources, From July 1, 2004, Through June 30, 2006
               (No. R-GR-FWS-0005-2007)

        This report presents the results of our audit of costs incurred by the State of Connecticut
(State), Department of Environmental Protection (Department), Bureau of Natural Resources
(Bureau), under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the
grants to the State under the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration (Federal Assistance Program). The audit included claims totaling
approximately $17.5 million on 46 grants that were open during State fiscal years (SFYs) ended
June 30 of 2005 and 2006 (see Appendix 1). The audit also covered Bureau compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Bureau complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $19,373 in costs related to in-kind (non-cash)
contributions. We also found:

            • the Bureau did not report all barter transactions that occurred on lands maintained
              with Federal Assistance Program funds,

            • the State did not fully comply with requirements to pass legislation regarding the
              use of hunting license revenue, and

            • the Bureau had inadequate controls over personal and real property.

We provided a draft report to FWS and the Bureau for response. We summarized Bureau and
FWS Region 5 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
January 14, 2008. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Jeff
Wilson, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Bureau:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $17.5 million on the 46 grants that were
open during SFYs ended June 30 of 2005 and 2006 (see Appendix 1). We reported only on the
conditions that existed during this audit period. We performed our audit at Bureau headquarters
operations in Hartford and Old Lyme, CT. We also visited the Western District Fisheries Office,
six wildlife management areas (WMAs), and two boating access sites (see Appendix 2). We
performed the audit to supplement, not replace, the audits required by the Single Audit Act
Amendment of 1996 and by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Bureau;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Bureau used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the work of the Connecticut Auditor of Public Accounts,
which helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On May 6, 2004, we issued “Audit Report, U.S. Fish and Wildlife Service Federal Assistance
Grants Administered by the State of Connecticut, Department of Environmental Protection,
Bureau of Natural Resources, from July 1, 2000, through June 30, 2002” (R-GR-FWS-0019-
2003). We followed up on all recommendations in the report and found that the Department of
Interior, Office of the Assistant Secretary for Policy, Management and Budget (PMB) considers
two recommendations resolved but unimplemented. The recommendations pertain to improving
controls over personal and real property. We discuss the Department’s inadequate controls over
property in more detail in the Findings and Recommendations section.




                                                4
We reviewed Connecticut’s Comprehensive Annual Financial Report and Single Audit Report
for SFY2005. The Bureau’s Federal Assistance Programs were not selected for compliance
testing in the SFY2005 single audit. Further, the SFY2005 Single Audit Report did not contain
any findings that would directly impact the Bureau’s Federal Assistance Program grants.




                                              5
                                      Results of Audit

Audit Summary
We found that the Bureau complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $19,373.
We discuss the findings in more detail in the Findings and Recommendations section.

       Questioned Costs. We questioned $19,373 (federal share) in costs because the Bureau
       claimed the value of ineligible volunteer hours to meet the requirement to fund 25 percent
       of grant expenditures using non-federal sources.

       Unreported Barter Transactions. The Bureau had not reported all barter transactions
       that occurred on lands within the wildlife areas managed with Federal Assistance
       Program funds.

       Inadequate Assent Legislation. The State’s laws do not explicitly prohibit the use of
       hunting license revenue for unallowable purposes.

       Inadequate Controls Over Personal Property. Some items listed on the Bureau’s
       Personal Property Inventory were missing or at the wrong location.

       Inadequate Controls Over Real Property. The Bureau’s real property records are
       inaccurate and incomplete, making it difficult for Bureau personnel to ensure control over
       real property purchased with Federal Assistance Program funds.

Findings and Recommendations
A.     Questioned Costs — $19,373

       Under Federal Assistance Program grants, FWS may reimburse a State up to 75 percent
       of grant expenditures, provided the State expends the required matching share of grant
       costs. The terms of Aquatic Resource Education grant F-64-E-17 require the Bureau to
       fund 25 percent of grant costs with non-federal funding. The Bureau used the value of
       hours donated by volunteer instructors as its State matching share of costs on grant F-64-
       E-17. While the State may use such in-kind (non-cash) contributions to meet the State
       matching requirement, the Bureau’s claim included some volunteer hours ineligible to be
       claimed as matching costs.

       The FWS Aquatic Resource Education Guide (522 FW 13) contains language strongly
       recommending that volunteer instructors go through a recruitment process that includes a
       background investigation. The guide also strongly suggests that States develop a formal
       training program to provide volunteers with information on the agency and the Sport-Fish
       Restoration Program.

                                                 6
The Bureau’s Application for Federal Assistance (AFA) for the Aquatic Resources
Education Grant contains a section on the “Job Approach for Volunteer Management."
This section indicates that the Bureau developed procedures to comply with the
recommendations in 522 FW 13 regarding volunteers. Specifically, the section states:

       All volunteers who apply will be subjected to a background check (criminal and
       fish/game violations). Those selected will participate in a formal training program
       to teach CARE [Connecticut Aquatic Resource Education] events.

It further states:

       Upon completion of the training and passing an examination, volunteers will be
       deemed certified to instruct as representatives of the Department of Environmental
       Protection.

The above language suggests that instructors should be certified before they teach courses
as part of the Aquatic Education program. However, the Bureau’s Aquatic Resource
Education staff members were unaware that, to meet the in-kind matching requirements,
they should report only those hours worked by certified instructors. As a result, the
Bureau expended only 20 percent in eligible matching costs on the grant. We calculated
questioned costs of $19,373 (federal share).

Recommendations

We recommend that FWS:

1. resolve the $19,373 of questioned costs; and

2. require the Bureau to develop a policy to ensure it reports only the value of hours
   from certified instructors as in-kind match, or if the value of hours worked by non-
   certified instructors are reported as match, to develop FWS-approved guidelines on
   what types of volunteer assistance can count as in-kind match.

Department Response

Bureau officials disagreed with our recommendations. They stated that they should be
allowed to count in the calculation of in-kind match the value of hours worked by
volunteers who were approved by the CARE Coordinator, assisted the certified
instructor, and submitted the appropriate time records to the instructor. The Bureau
acknowledged that as currently written, the project statement in the CARE AFA does not
address the use of volunteer assistants to help certified instructors and said that an
amendment to the AFA regarding the use of volunteers as assistants to the certified
instructor will be submitted to FWS by September 30, 2007.




                                         7
     FWS Response

     FWS regional officials concurred with the recommendations and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     In response to the Bureau, we note that in developing the Corrective Action Plan, Bureau
     and FWS officials should discuss whether the Bureau’s proposed actions adequately
     address the problem identified. We added additional language in recommendation two
     regarding developing guidelines for what hours worked by non-certified instructors the
     Bureau can use in its calculations for in-kind match claimed. We believe such guidance
     is necessary because we noted during the audit that some assistants were minors and their
     primary duties consisted of distributing supplies to students in class. Additionally, such
     action does not address the questioned costs of $19,373.

     While FWS management concurs with the recommendations, additional information is
     needed in the corrective action plan, including:

        •   the specific actions taken or planned to resolve and implement the
            recommendations,

        •   targeted completion dates,

        •   titles of officials responsible for implementing the actions taken or planned to
            resolve and implement the recommendations, and

        •   verification that FWS officials reviewed and approved of actions taken or planned
            by the State.

B.   Unreported Program Income From Barter Services

     The Bureau enters into lease agreements with farmers in which the Bureau allows the
     farmers to use WMA lands for agricultural purposes. In exchange, the farmer provides
     services that are intended to improve and maintain wildlife habitat. The value of the
     services is program income. Federal regulations allow grantees to earn such income as a
     result of grant-supported activities, but the grantee must account for the income in an
     approved manner.

     The Code of Federal Regulations (43 C.F.R. § 12.65) defines program income as gross
     income received by the grantee directly generated by a grant supported activity, or earned
     only as a result of the grant agreement during the grant period. The regulations also
     require a grantee to report the program income in the method specified by the grantor.
     The FWS Manual (522 FW 19.4, Exhibit 1) requires grantees to report income they
     receive from contractor-provided services that support grant objectives on lands


                                              8
purchased or managed with Federal Assistance Program funds. Exhibit 1 specifically
mentions income from agricultural producers and the harvest of assets—such as timber or
hay—as potential program income.

Federal Assistance Program grants W-61-D-9, W-61-D-10, and W-61-D-11 provided
funds to support the Bureau's habitat enhancement activities on its WMAs. The Bureau
received $34,304 in estimated barter services, which were provided on its WMAs, for the
grants open during our audit period. The Department did not report the value of those
services as program income on the financial status reports (SF-269) associated with the
three grants: W-61-D-9 ($11,451), W-62-D-10 ($11,261), and W-61-D-11 ($11,591).

Bureau officials did not report program income earned or received from barter services
during the period of our review because they were not aware that such arrangements were
generating barter income for the Bureau.

Recommendations

We recommend that FWS:

1.       resolve the $34,304 in unreported program income from barter services for FYs
         2004 to 2006, and

2.       ensure that the Bureau reports barter services related to grant supported activities on
         the SF-269.

Department Response

Bureau officials concurred with our recommendations and stated that the Department will
report the value of these services on all future financial status reports.

FWS Response

FWS officials concurred with the recommendations and stated that they would work with
the Bureau in developing a corrective action plan to resolve the recommendations.

OIG Comments

While FWS regional management concurs with the recommendations and the Bureau
indicated it is taking action to address the recommendations, additional information is
needed in the corrective action plan, including:

     •     targeted completion dates,

     •     titles of officials responsible for the specific actions taken or planned to resolve
           and implement the recommendations, and



                                              9
                •   information verifying FWS reviewed and approved of actions taken or planned by
                    the State.

C.         Inadequate Assent Legislation

           Pursuant to 50 C.F.R. § 80.3, States are required to pass legislation assenting to the Acts
           before the State can participate in the Federal Assistance Program. The regulations also
           requires States to pass laws prohibiting the use of hunting and fishing license revenue for
           purposes other than administration of the fish and wildlife agency. The State did not
           comply with all of these requirements.

           The State passed legislation that assents to the provisions of the Acts. 2 The statutes
           clearly prohibit the diversion of fishing license revenues for purposes other than the
           “protection, propagation, preservation, and investigation of fish and game and
           administration of the functions of the Department relating thereto.” However, the State
           did not provide a similar prohibition for hunting license revenue.

           The lack of assent legislation for hunting license revenue may allow for a diversion of the
           license revenue. It could also result in the State not being entitled to receive funds
           apportioned under the Pittman-Robertson Wildlife Restoration Act.

           Recommendation

           We recommend that FWS require the Department to work with the State legislature to
           revise Connecticut General Statute § 26-15 so it specifically prohibits the diversion of
           hunting license revenue, or to obtain a solicitor’s opinion concluding that such a change
           to the State Code is not required.

           Department Response

           Department officials concurred with our recommendation that revised statutory language
           is needed to meet federal requirements. They stated that the Department will draft and
           submit assent legislation for consideration by the Connecticut General Assembly during
           the 2008 legislative session.

           FWS Response

           FWS regional officials concurred with the recommendation and stated that they would
           work with the Department in developing a corrective action plan to resolve the
           recommendation.




2
    Connecticut General Statute §§ 26-14 (sport fish restoration) and 26-15 (wildlife restoration).

                                                            10
         OIG Comments

         While FWS regional management concurs with the recommendation and the Department
         indicated action is being taken to address the recommendation, additional information is
         needed in the corrective action plan, including:

             •    targeted completion dates,

             •    titles of officials responsible for implementing the actions taken or planned to
                  resolve and implement the recommendation, and

             •    verification that FWS officials reviewed and approved of actions taken or planned
                  by the State.

D.       Inadequate Controls Over Personal Property

         Federal regulations require the States to maintain control over all personal property. To
         test whether the Bureau maintains adequate control over its personal property, we
         selected a judgmental sample of 26 items acquired with either Federal Assistance
         Program funds or license revenue. 3 We found the Bureau does not maintain adequate
         control over its property. Five of the items tested were not at the specified location. One
         of the five items was assigned to the wrong location in the property inventory system.
         We could not find the other four items, worth a combined total of $49,478. Inadequate
         controls over equipment place the Bureau at greater risk of losing property or being
         unable to locate it.

         Pursuant to 50 C.F.R. § 80.18, States are required to maintain control over all assets
         acquired with Federal Assistance Program funds to ensure they serve the purpose for
         which they were acquired. Federal regulations (43 C.F.R. § 12.72) also require each
         State to follow the State laws and procedures when managing equipment. The State of
         Connecticut Property Control Manual, Chapter 6 states, “property should not be
         transferred without formal written authorization. Unless transfers are formally
         authorized, property cannot be controlled.” It also states, with regard to physical
         inventories, “the comptroller recommends that personal property physical inventories be
         conducted annually.”

         Bureau officials believed that three of the four missing items, which were assigned to the
         headquarters location in the property inventory, were transferred to field locations.
         However, they were unable to identify the specific locations. The officials could also not
         identify the whereabouts of the fourth missing item, a $34,470 mobile home.



3
  We selected items based on dollar value, risk of being lost (such as smaller items), and potential consequences if
lost (such as firearms). The 26 items had a combined value of $175,995, which represents 23 percent of the total
sampling universe.


                                                         11
We believe the four items were missing because Department staff had not conducted
regular periodic physical inventories. Additionally, the Bureau staff did not always
obtain proper written authorization when transferring inventory among locations. During
our audit the Department’s property officer, who recently took responsibility for the
inventories, was in the process of visiting all headquarters and field locations to conduct
complete physical inventories.

We also reported in 2003 (R-GR-FWS-0019-2003) that the Bureau had inadequate
controls over personal property. The Bureau implemented three of the report’s
recommendations. However, the report contains an unimplemented recommendation that
the Bureau account for and control Federal Assistance Program property to assure it is
used for the purpose for which it was acquired. This recommendation remains open and
we make two additional recommendations below regarding control of personal property.

Recommendations

We recommend that FWS require the Bureau to:

1.   locate the four missing items and update the equipment inventory so it contains the
     correct information on the location of the items; and

2.   ensure that the appropriate Bureau staff conduct regular periodic inventories, obtain
     written authorization when personal property is transferred, and document the
     transfer.

Department Response

Department officials stated that it has addressed this issue by locating the missing items.
It also stated that it undertakes an inventory of Bureau assets annually and that it will
remind field staff to use the inventory transfer sheet whenever property is transferred
from one location to another.

FWS Response

FWS officials concurred with the recommendations and stated that they would work with
the Department in developing a corrective action plan to resolve the recommendations.

OIG Comments

The Department indicated it has located the missing items and that it undertakes an
inventory of Bureau assets annually. While such an inventory was being conducted while
we were onsite, regular periodic inventories were not conducted during the audit period.
We believe the Department needs additional controls to ensure it adequately addresses
recommendation D.2.




                                         12
     Additional information is needed in the corrective action plan, including:

        •   actions taken or planned to address the recommendations and targeted completion
            dates,

        •   titles of officials responsible for implementing the actions taken or planned to
            resolve and implement the recommendations, and

        •   verification that FWS officials reviewed and approved of actions taken or planned
            by the State.

E.   Inadequate Controls Over Real Property

     Adequate and accurate real property (land) records help the State to ensure it uses real
     property purchased with Federal Assistance Program funds only for the originally
     intended purpose. We reported in 2003 that the Bureau’s property records for land
     acquired with Federal Assistance Program funds were not accurate (R-GR-FWS-0019-
     2003). We recommended that the Bureau update its property records. We confirmed,
     through conversations with FWS, State officials, and the State auditor, that the Bureau
     has not yet updated its property records. The Bureau therefore cannot ensure that land
     purchased with Federal Assistance Program funds are utilized solely for the purpose for
     which they were acquired.

     The State’s Property Control Manual, dated April 2006, requires State agencies to
     maintain property records for all State-owned land. These property control records must
     contain certain data, including the date of acquisition, location, acreage, source of funds
     used to purchase the property, and a State identification number. In addition, under 50
     C.F.R. § 80.19, the Bureau must maintain current and complete property records in
     accordance with requirements contained in the FWS Manual and OMB Circular A–102.
     Finally, 50 C.F.R. § 80.18 places responsibility on the Bureau for the accountability and
     control of all assets acquired with Federal Assistance Program funds to ensure that they
     serve the purpose for which acquired throughout their useful life.

     The Department is updating its land inventory records to identify the funding source for
     lands acquired with Federal Assistance Program funds. However, they have not
     completed the process. The targeted completion date is August 2007. The FWS and
     State established this date in the Corrective Action Plan that addresses the
     recommendations contained in our 2003 report. We note that while we repeat the
     recommendation from our prior report below, the timetable for completion remains the
     same.

     Recommendation (Repeated from 2003 report)

     We recommend that FWS ensure the Department updates its land inventory records.




                                              13
Department Response

Department Officials responded that they had addressed this issue by reviewing all land
records and preparing a report entitled “Land Acquisition Inventory of Fish and Wildlife
Areas Purchased with Sportfish Restoration Funds or Wildlife Restoration Funds.”

FWS Response

FWS officials agreed with the recommendation and stated that they would work with the
Department in developing a corrective action plan to resolve the recommendation.

OIG Comments

The Department did not provide to us during our audit the report mentioned in their
response. We note that we repeated the recommendation from our prior audit.
Therefore, FWS should provide documentation on the implementation of this
recommendation to PMB. FWS may also provide us with this information, but only
PMB has the authority to close this recommendation.




                                       14
                                                             Appendix 1
                                                               Page 1 of 2

    CONNECTICUT BUREAU OF NATURAL RESOURCES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
        JULY 01, 2004, THROUGH JUNE 30, 2006

                                         Questioned Costs
                                          (Federal Share)
  Grant        Grant      Claimed        Cost
 Number       Amount       Costs       Exceptions    Total
F-50-D-25      $468,040     $564,178
F-50-D-26      $483,296     $601,909
F-50-D-27      $492,634     $273,459
F-54-R-24      $617,434     $692,791
F-54-R-25      $638,742     $720,999
F-54-R-26      $691,256     $171,182
F-57-R-23    $1,476,695   $1,734,901
F-57-R-24    $1,642,856   $1,611,051
F-57-R-25    $1,317,984     $353,597
F-60-D-16      $281,900     $275,361
F-60-D-17      $870,000     $891,227
F-60-D-18       $50,000           $0
F-61-T-18      $449,451     $562,681
F-61-T-19      $484,258     $549,491
F-61-T-20      $375,840     $109,344
F-64-E-16      $408,585     $450,260
F-64-E-17      $456,923     $403,341    $19,373    $19,373
F-64-E-18      $477,401     $143,399
F-70-D-8      $267,218     $350,993
F-70-D-9       $492,407    $444,296
F-100-R-21       $6,667       $8,969
F-100-R-22       $6,667       $7,716
F-100-R-23       $6,667       $2,414
FW-1-C-9      $295,849     $380,836
FW-1-C-10     $296,107     $394,666
FW-1-C-11     $330,573     $113,895
W-36-R-39        $6,500       $6,500
W-36-R-40        $6,500       $6,500
W-49-R-29     $675,517     $657,785
W-49-R-30     $811,843     $769,299
W-49-R-31     $844,660     $472,708
W-54-T-24       $91,113    $128,022
W-54-T-25     $145,519     $125,622
W-54-T-26     $218,590     $123,506

                             15
                                                              Appendix 1
                                                                Page 2 of 2

     CONNECTICUT BUREAU OF NATURAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 01, 2004, THROUGH JUNE 30, 2006

                                         Questioned Costs
                                          (Federal Share)
  Grant        Grant        Claimed        Cost
 Number       Amount         Costs      Exceptions    Total
W-57-S-23     $491,013      $533,366
W-57-S-24     $504,347      $578,337
W-57-S-25     $565,125      $398,179
W-61-D-9      $286,729       $282,685
W-61-D-10     $317,107      $370,380
W-61-D-11     $274,519      $247,297
W-62-R-8         $2,992        $2,922
W-62-R-9         $2,258        $2,258
W-62-R-10        $2,258            $0
W-63-O-3      $337,282       $343,629
W-63-O-4      $374,842       $362,731
W-63-O-5      $388,163      $268,642
Totals      $19,732,327   $17,493,324    $19,373    $19,373




                              16
                                              Appendix 2


CONNECTICUT BUREAU OF NATURAL RESOURCES
              SITES VISITED

                 Headquarters

                    Hartford
          Marine Fisheries - Old Lyme

                 District Offices

        Western District - Inland Fisheries


          Wildlife Management Areas

                  Barn Island
                 Branford River
                Charles Wheeler
               Durham Meadows
             Quinnipiac River Marsh
                Sessions Woods


                   Other Sites

           Barn Island Boating Access
      North Farms Reservoir Boating Access




                        17
                                                                               Appendix 3

                                 CONNECTICUT
                  DEPARTMENT OF ENVIRONMENTAL PROTECTION
                        BUREAU OF NATURAL RESOURCES
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations               Status                          Action Required
A.1, A.2, B.1, B.2, C, D.1,   FWS management concurs          Additional information is
and D.2                       with the recommendations, but   needed in the corrective action
                              additional information is       plan, including the actions
                              needed as outlined in the       taken or planned to implement
                              “Actions required” column.      the recommendations, targeted
                                                              completion date(s), the title of
                                                              official(s) responsible for
                                                              implementation, and
                                                              verification that FWS officials
                                                              reviewed and approved of
                                                              actions taken or planned by
                                                              the State. We will refer
                                                              recommendations not resolved
                                                              and/or implemented at the end
                                                              of 90 days (after January 15,
                                                              2008) to the Assistant
                                                              Secretary for Policy,
                                                              Management and Budget
                                                              (PMB) for resolution and/or
                                                              tracking of implementation.

E                             Repeat recommendation from      Provide documentation
                              our prior audit report (R-GR-   regarding the implementation
                              FWS-0019-2003). PMB             of this recommendation to
                              considers this                  PMB.
                              recommendation resolved but
                              unimplemented.



     




                                           18
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
